OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/PAKISTAN’S
AGRIBUSINESS PROJECT
AUDIT REPORT NO. G-391-13-004-P
JUNE 12, 2013




ISLAMABAD, PAKISTAN
Office of Inspector General


June 12, 2013

MEMORANDUM

TO:                  USAID/Pakistan Mission Director, Jonathan M. Conly

FROM:                Office of Inspector General/Pakistan Director, Matthew Rathgeber /s/

SUBJECT:             Audit of USAID/Pakistan’s Agribusiness Project (Report No. G-391-13-004-P)

This memorandum transmits our final report on the subject audit. We have carefully considered
your comments on the draft report and have included them in their entirety in Appendix II.

This report contains nine recommendations to help the mission improve the Agribusiness
Project. Based on your written comments in response to our draft report, a management
decision has been reached on Recommendation 2. Management decisions have not been
reached on the other eight recommendations. The mission should coordinate with USAID’s
Audit Performance and Compliance Division concerning final action on Recommendation 2.

I want to thank you and your staff for the cooperation and assistance extended to us during this
audit.




U.S. Agency for International Development
American Embassy, Diplomatic Enclave
Ramna 5, Islamabad, Pakistan
http://oig.usaid.gov
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 4

     Implementer Lacked Capacity to Manage Project ................................................................. 4

     Implementer Did Not Correct Material Weaknesses .............................................................. 5

     Project Did Not Implement Its Information System ................................................................ 7

     Project Was Late and Did Not Meet Targets ......................................................................... 8

     Project Did Not Assess Subrecipients’ Eligibility Thoroughly ............................................... 10

     Grant Activities Visited May Not Be Sustainable.................................................................. 11

     Implementer Did Not Record All Project Income ................................................................. 12

Evaluation of Management Comments.................................................................................. 13

Appendix I—Scope and Methodology ................................................................................... 16

Appendix II—Management Comments .................................................................................. 18
SUMMARY OF RESULTS
Pakistan’s economy depends on agriculture, which makes up about 20 percent of the gross
domestic product.1 However, the country does not have a vibrant agribusiness subsector to link
farmers to markets. That subsector suffers from poor product quality, low productivity, and a
lack of packaging, storage, and processing facilities. Farmers find it challenging to produce,
process, store, and sell high-quality, lucrative crops.

USAID is implementing the Agribusiness Project to develop agriculture value chains, which link
all those involved in producing the crop or animal, processing it, and selling the product. The
project’s goals are to facilitate broad-based economic growth, create jobs, and contribute to
eliminating poverty by improving the competitiveness of horticulture and livestock value chains.
To achieve them, the project has two components:

   Technical assistance for building capacity and supporting programs
   Cost-sharing grants

In November 2011, USAID/Pakistan awarded a 5-year, $89.4 million sole-source (or
noncompetitive bid) cooperative agreement to a local NGO, the Agribusiness Support Fund
(ASF), to carry out the Agribusiness Project. Under this agreement, ASF awarded a $5.3 million
subagreement to Citizens Network for Foreign Affairs (CNFA), a U.S.-based international
organization, to provide technical assistance and services. As of December 2012, USAID had
obligated approximately $27.3 million and spent $7.8 million for the project.

The Office of Inspector General (OIG) conducted this audit to determine whether
USAID/Pakistan’s Agribusiness Project was facilitating broad-based economic growth and
creating jobs—two of its three goals. The audit team found that it has not had much success in
achieving the two goals. Additional time may be needed, since many planned activities are
scheduled to be completed over 5 years, and most grants awarded to build capacity and create
jobs began after August 2012—10 months into the 5-year project.

ASF had limited experience managing a project that awards grants to subrecipients and
beneficiaries. When it received the award, it did not have procurement and finance policies that
complied with USAID regulations; so the staff spent the first year developing manuals, working
out the best approaches to designing and implementing activities, and developing work plans.

However, ASF made some progress. As of March 2013, 11 subrecipients2 charged with the key
activity of forming farmer groups that will receive agribusiness training and grants from ASF had
formed 605 groups. Additionally ASF had begun to support 272 existing groups it formed before
implementing the Agribusiness Project.



1
 CIA, The World Factbook.
2
  USAID’s Automated Directives System (ADS) defines a subrecipient as any person or government
department, agency, establishment, or nonprofit organization that receives financial assistance to carry
out a program through a primary recipient or other subrecipient.



                                                                                                      1
ASF did not make progress toward achieving the second goal. It had not developed a system to
monitor and track jobs created. Even though the project had awarded 110 grants as of
February 2013, it had not created any permanent jobs. Additionally, the five grant activities that
auditors visited may not be sustainable. For example, four farmer groups had limited access to
markets; thus, the audit team could not determine whether the activities would increase
employment in the surrounding community.

The audit identified seven other problems, listed below.

   ASF lacked capacity to manage the project (page 4). As a result, the project is delayed,
    which could prevent it from achieving its goals.

   ASF did not correct material weaknesses (page 5). It did not improve its processes or
    correct weaknesses identified in a preaward assessment report within the set time frame. As
    a result, funds may be at an increased risk of waste or misuse. In addition, ASF may not be
    able to achieve project goals as intended.

   The project did not implement an information system as required in its preaward assessment
    (page 7). As of March 2013, the project had not implemented an information system. As a
    result, information is not centralized and recording errors could occur, which could prevent
    ASF from reporting accurate project information to USAID/Pakistan.

   The project was late and did not meet targets for awarding cost-sharing grants (page 8). If
    ASF continues to be late, the project may not achieve its goal of improving broad-based
    economic growth and creating jobs.

   The project did not assess subrecipients’ eligibility thoroughly (page 10). As a result,
    subrecipients may not have the internal controls required to implement the activities, and
    they may not be able to track the resources used.

   The grant activities the audit team observed may not be sustainable (page 11). If these and
    future grant activities continue to lack sustainability, the project may not achieve its targets
    for improving broad-based economic growth and creating jobs.

   ASF did not record project income properly (page 12). It recorded application fees in a
    reserve account rather than as project income. As a result, these funds might not be used
    for the project.

To strengthen the Agribusiness Project, we recommend that the mission:

1. Develop an action plan to make sure project goals can be reached by the end of 2016, or, if
   they cannot, determine whether the agreement signed with the Agribusiness Support Fund
   should be discontinued (page 4).

2. Prior to making future awards, implement mission-wide procedures to verify independently
   that corrective actions are sufficient to address weaknesses identified in preaward
   assessments (page 7).




                                                                                                  2
3. Implement a plan to confirm that the policies and procedures of the Agribusiness Support
   Fund related to governance, procurement, human resources, information technology, and
   agribusiness operations comply with USAID regulations (page 7).

4. Follow up with the Agribusiness Support Fund to correct the weaknesses identified in the
   second preaward assessment (page 7).

5. Implement a strategy to work with the Agribusiness Support Fund to update its finance and
   procurement manuals and implement the integrated management information system
   (page 8).

6. Implement a plan to monitor the second-year annual plan to confirm that the project can
   meet its targets, outcomes, and goals (page 10).

7. Require the Agribusiness Support Fund to stop advance payments to subrecipients
   responsible for forming farmer groups until it conducts a thorough preaward responsibility
   determination (page 10).

8. Obtain a revised annual plan from the Agribusiness Support Fund to include specific grant
   activities that it plans to implement during the year, with benchmarks and milestones, and
   expected outputs and outcomes (page 12).

9. Require the Agribusiness Support Fund to record the nonrefundable application fee received
   from the grantees as income in the project accounts (page 12).

Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Our evaluation of management comments is included on page 13, and the full text
of management comments will appear in Appendix II.




                                                                                           3
AUDIT FINDINGS
Implementer Lacked Capacity to
Manage Project
Automated Directives System (ADS) 303.3.9, “Preaward Responsibility Determination,”3 states
that before making an award, the agreement officer should be satisfied that the applicant could
perform the award in compliance with USAID regulations. According to ADS 303.3.9.2, if, after
conducting a comprehensive review of a potential recipient, USAID cannot affirm that the
recipient has the capacity to manage USAID funds responsibly, the Agency can deny the award
or make it with “special award conditions.” USAID may consider using the latter option only if it
appears likely that the potential recipient can correct its deficiencies within a reasonable amount
of time.

USAID/Pakistan granted a sole-source award to ASF even though it had limited experience
issuing grants and managing an $89.4 million project. To determine whether ASF was eligible,
the mission conducted market research and concluded that it was the only local organization
that might be capable of implementing the project. In June 2011 mission officials decided to
work with ASF after a January 2011 preaward assessment rated ASF as a high risk and before
an October 2011 follow-up preaward assessment was completed. The award was made
subsequently in November 2011.

According to USAID/Pakistan officials, when this project was designed, the mission was under
pressure from the Embassy also to use only Pakistani groups as implementers, and the
Embassy favored ASF. In addition, USAID/Pakistan had time constraints to select an
organization for the project and could not visit some of the potential candidates because of
security concerns.

ASF could not manage the project. It did not correct material weaknesses identified in a
preaward assessment in a timely manner and has been operating with several organizational
weaknesses, as discussed in the next finding. In addition, the project did not meet any of its
targets during the first year of implementation (page 8). Furthermore, ASF issued advance
payments to subrecipients even though it did not assess them thoroughly to be sure they were
eligible (page 10). Equally important, the activities that the audit team visited are not sustainable
(page 11). All of these problems indicate that the project may not be able to achieve its goals,
and funds could be spent incorrectly. For this reason we make the following recommendation.

      Recommendation 1. We recommend that USAID/Pakistan develop an action plan to
      make sure project goals can be reached by the end of 2016, or, if they cannot,
      determine whether the agreement signed with the Agribusiness Support Fund should be
      discontinued.




3
    The guidance at the time of the award was dated June 2011. The latest version is dated July 2012.


                                                                                                        4
Implementer Did Not Correct Material
Weaknesses
As discussed in the previous finding, ADS 303.3.9 states that before making an award, the
agreement officer should be satisfied that the applicant could perform the award in compliance
with USAID regulations. According to ADS 303.3.9.2, if after conducting a comprehensive
review of a potential recipient, USAID cannot confirm that the recipient has the capacity to
manage USAID funds responsibly, the Agency can deny the award or make it with “special
award conditions.”

Contrary to this guidance, USAID/Pakistan did not take the necessary steps to make sure ASF
had the capacity to manage USAID funds responsibly. ASF did not correct deficiencies that it
agreed to fix within a certain time frame. In January 2011, before USAID/Pakistan made the
award, the first preaward assessment identified significant weaknesses in governance, internal
controls, accounting and financial management, human resource management, procurement,
information technology, and agribusiness operations.

The second preaward assessment—completed 9 months later in October 2011—noted
improvements in some processes and lowered the overall risk from high to medium. However,
the accounting firm that conducted the assessment reduced the risk based on unverified
statements from ASF that it had corrected the weaknesses. According to the firm, it did not
verify the information because ASF was not operating at full capacity. Some examples of
problems with the assessment are listed below.

   It relied on ASF’s board of directors’ approval of procedures manuals for procurement and
    human resources. However, the manuals lacked detailed information and did not comply
    with USAID regulations for full and open competition.

   It relied on ASF statements that it would overcome the weaknesses by hiring an
    international firm to train its staff. However, that firm’s scope of work showed it was not
    responsible for providing capacity building for some of the weaknesses.

Despite the improved overall assessment, the accounting firm found six weaknesses and
recommended adding six conditions to the award, which were repeated also in the negotiation
memorandum between USAID/Pakistan and ASF. Although ASF agreed to correct the
weaknesses by a certain time, as of the time of the audit, it had not corrected two and only
partially corrected one (shown in Table 1).




                                                                                             5
                         Table 1. Significant Weaknesses Not Corrected

              Weaknesses                     Deadline                       Status
                                                                 Partially corrected. Although it
                                                                 has established an internal
     ASF did not have an internal        3 months from date
                                                                 audit department, ASF has not
     audit department.                   of first disbursement
                                                                 produced any internal audit
                                                                 reports as of March 2013.
     ASF had weaknesses in design
     and operations of the grant
                                         3 months from date
     management system, which is                                          not corrected
                                         of first disbursement
     part of the information
     technology system.
     ASF had weaknesses in the           6 months from date
                                                                          not corrected
     information technology system.      of first disbursement
    Source: Negotiation memorandum (audited).

The weaknesses were not corrected because USAID/Pakistan did not have a procedure to
verify whether ASF had taken the appropriate corrective actions. In addition, ASF provided
inaccurate information in the second preaward assessment since its actual practices were
different from those reported. For example, the assessment stated that ASF would advertise for
vendors when the value of goods and services exceeded $5,000; however, ASF’s procurement
policy did not require it to advertise. In addition, ASF’s actual monetary thresholds for getting
written quotations from vendors differed from those in the assessment. Further, the mission did
not verify whether ASF’s procurement policy reflected what was reported in the preaward
assessment.

Moreover, the mission did not verify whether weaknesses found in a 2011 OIG audit report for
this project were corrected; nor did it did follow through on the following recommendations.4

   Implement a risk-assessment model to use when determining which of the weaknesses
    identified in the preaward assessments should be addressed before or after funds were
    disbursed.

   Implement a comprehensive tracking system with benchmarks and time frames for
    measuring the progress on resolving weaknesses that are identified in the preaward
    assessment reports.

   Issue written guidelines to follow when determining               whether     pre-disbursement
    recommendations have been addressed adequately.

Last, a USAID/Pakistan official said the mission did not verify whether ASF corrected the
weaknesses identified in the second preaward assessment within an agreed-upon time frame
since the requirement to correct the weaknesses was not included in the cooperative
agreement. ADS 303.3.9.2 did not require the mission to include the conditions in the
agreement if the preaward assessment risk rating is medium or lower. In the case of ASF, the
second preaward assessment lowered the risk from high to medium.


4
 Audit of USAID/Pakistan’s Management of Preaward Assessments, Audit Report G-391-11-004-P,
May 6, 2011.


                                                                                                    6
Because the mission did not verify whether ASF corrected its identified weaknesses, USAID
funds could be at risk of waste or misuse. In addition, ASF may not be able to achieve its goals
as intended if it does not have the necessary controls in place to implement the project.
Therefore, we make the following recommendations.

    Recommendation 2. We recommend that prior to making future awards,
    USAID/Pakistan implement mission-wide procedures to verify independently that
    corrective actions are sufficient to address weaknesses identified in its preaward
    assessments.

    Recommendation 3. We recommend that USAID/Pakistan implement a plan to confirm
    that the policies and procedures of the Agribusiness Support Fund related to
    governance, procurement, human resource, information technology, and agribusiness
    operations comply with USAID regulations.

    Recommendation 4. We recommend that USAID/Pakistan follow up with the Agribusiness
    Support Fund to correct the weaknesses identified in the second preaward assessment
    report.

Project Did Not Implement Its
Information System
According to the negotiation memorandum between USAID and ASF, ASF agreed to install an
integrated management information system 6 months after receiving the first disbursement for
the Agribusiness Project.

In March 2012 ASF received the first disbursement; however, as of March 2013—12 months
later—it had not installed the system. According to ASF officials, the information system will not
be ready until October 2013.

Since ASF does not have an information system to monitor and track project results, it is using a
master database to store grant-related information that the staff plans to transfer into the system
once it is launched. However, data were stored in several different files and not in a centralized
database. For example:

   The database does not disaggregate data for certain indicators that ASF should track, like
    the percentage of women who are members of farmer groups.

   The database does not include each grant recipient’s government identification number that
    ASF officials say is required to make sure that the correct people are receiving the grants.

   ASF did not include the grantees’ addresses so it could track and monitor the activities.

ASF officials admitted that some data were missing from the database. They explained that
since they started working on these activities, they were aware of the information and could
keep track of projects without including everything in the database. However, the information
should be in a master database that includes information about each grantee, such as name,
identification number, and gender. This would enable ASF to send USAID/Pakistan accurate
information.



                                                                                                 7
The delays with the information system occurred for a variety of reasons. First, the Pakistani
Government took 2 to 3 months to give a visa to the contractor who would install it. ASF officials
said the contractor was scheduled to arrive in April 2013 and plan to complete the system by
October 2013.

Second, bids for the system were higher than expected. As a result, ASF had to resolicit bids for
the project.

Third, ASF did not prepare and obtain approval for grant, finance, and procurement procedure
manuals in time to install in the information system. For example, USAID/Pakistan approved the
grants manual—which the fund needed to develop the information system—in May 2012,
6 months after the project started. ASF’s staff needed information from that manual to enable
the system to support the grants management function of the project. ASF also needed the
financial and procurement manuals to develop those portions of the system. Although ASF
prepared both in 2012, the contractor collecting the information for the system said they did not
include enough standardized procedures to be useful.

Because of these delays, information is not centralized and recording errors could occur, which
could result in inaccurate project information being reported to USAID/Pakistan. It also hinders
ASF’s staff from monitoring grantees. For this reason, we make the following recommendation.

   Recommendation 5. We recommend that USAID/Pakistan implement a strategy to
   work with the Agribusiness Support Fund to update its finance and procurement
   manuals and implement the integrated management information system.

Project Was Late and Did Not Meet
Targets
According to the Agribusiness Project’s first-year work plan, ASF should have started
four activities by November 2012, listed in Table 2.

           Table 2. First-Year Activities for Cost-Sharing Grants Component
                                                                 Actual    Target Completion
                                                  Targets
                                                                Numbers           Date
    Formation of farmer groups                      700             0     August 15, 2012
    Support to existing farmer groups               300             0     September 15, 2012
    Cost-share grant support to associations,
                                                     20             0     September 15, 2012
    cooperatives, and farm service centers*
   Cost-share grant support to individual
                                                    20               0    October 15, 2012
   farmers/corporate farming
  Source: Agribusiness Project fourth quarterly work plan (audited).
  * The cost-sharing grants are to be provided to and implemented in partnership with the
  agribusinesses, farmers, and farmer groups.

ASF did not meet its targets for cost-sharing grants during its first year and has experienced
delays. As Table 2 shows, the project did not create any of the 700 farmer groups that it was
charged with forming by August 2012. However, in the second year, it began to support
272 farmer groups that were established before the project began.



                                                                                                8
For cost-share grant support to associations, cooperatives, and farm service centers, ASF
approved one proposal in the first year but did not provide the grant until the second; hence, it
was not able to meet its target of 20 for that year. ASF did not provide any matching grant
support to individual farmers or corporate farms in the first year. However, during the
second year, it selected 54 recipients for milk chillers and 24 recipients for solar food dryers,
and signed contracts with them. ASF officials said they plan to provide the equipment to
grantees between March and April 2013.

Officials from ASF and the mission acknowledged that the project did not meet its first-year
targets for cost-sharing grants and provided several reasons for the delays.

ASF set unrealistic targets in its first-year work plan because the staff believed they could
achieve them. USAID/Pakistan approved that plan because, when the project started, officials
said they felt ASF was qualified to implement the project on time. In addition, they said they
believed ASF was qualified based on the results from the market research conducted during the
project’s planning phase.

However, USAID/Pakistan officials said that during implementation they realized ASF did not
have much experience making grants and that it was not aware of the Agency’s standards. In
addition, ASF needed significant capacity building and did not have several necessary
procedures in place. Mission officials said the staff did not have the capacity to prepare
environmental assessment forms, which were required at the time of the audit.5 Therefore,
USAID/Pakistan and a consultant it hired had to work extensively with ASF’s staff and provided
sample templates so they could understand how to complete the forms.

To further address ASF’s lack of experience, the mission asked ASF officials to recruit an
international consultant to work as deputy chief of party. USAID/Pakistan collaborated with
ASF’s staff in preparing terms of reference and scope of work to hire this person, who would be
responsible for planning, implementing, and monitoring the project, and could address pertinent
issues in an objective manner.

However, ASF officials said that having an international consultant in this role would not help
because it would be difficult for the consultant to travel to certain areas of the country because
of security concerns and the person might not understand Pakistani culture. Nevertheless, ASF
agreed to do so to continue implementing the project.

ASF officials attributed the project’s delays to USAID/Pakistan adding tasks that were not in the
proposal or agreement. For example, the mission required ASF to move its project office from
Lahore to Islamabad, which took 3 months and delayed work. The ASF officials also said the
previous donor—Asian Development Bank— provided them with all manuals and forms to use
while implementing their project. In contrast, ASF must prepare its own manuals and forms
when implementing USAID’s Agribusiness Project.

If ASF continues to be delayed, the project may not achieve its goals of improving broad-based
economic growth and creating jobs. For this reason, we make the following recommendation.




5
  USAID no longer requires the implementer to submit an environmental form for approval. Instead, it
completed an environmental assessment, which should enable grants to be approved in a timely manner.


                                                                                                  9
   Recommendations 6. We recommend that USAID/Pakistan implement a plan to
   monitor the second-year annual plan to confirm that the project can meet its targets,
   outcomes, and goals.

Project Did Not Assess Subrecipient
Eligibility Thoroughly
Both ASF and the mission agreed that ASF would assess subrecipients’ eligibility before
submitting their bids to the mission for final approval. ASF must assess an applicant’s internal
controls, organizational structure, and capacity to evaluate their management, financial, and
administrative ability to implement a subrecipient award.

According to the cooperative agreement between USAID/Pakistan and ASF, the recipient must
determine that the subrecipient possesses the ability to perform successfully under the terms
and conditions of a proposed award, taking into consideration the subrecipient’s integrity, record
of past performance, financial and technical resources, and accessibility to other necessary
resources. The recipient must verify that subawards are made in compliance with the Agency’s
standard provisions “Debarment and Suspension” and “Preventing Terrorist Financing.”

However, ASF did not assess subrecipients thoroughly. It awarded $2.6 million to
11 subrecipients and has disbursed advance payments to 7. For the four subrecipients tested,
several documents were missing or not provided. Three received advances totaling $76,000,
but did not provide documentation to prove that their senior managers reviewed and approved
their monthly financial statements. One of the three subrecipients received a total of $35,000 in
advances; however, the subrecipient never provided ASF with documentation as support that its
bank account was in the organization’s name and not in the name of an individual. Further,
none of the four subrecipients provided documentation showing that they were capable of
accounting for advance payments or implementing the work.

ASF officials agreed with OIG that they did not perform a thorough review of the subrecipients.
They blamed this on not having enough time to test controls and on pressure from
USAID/Pakistan to select subrecipients and begin forming the farmer groups. The officials said
the purpose of the preaward responsibility determination assessment was to get the
subrecipients’ input on whether their organizations had procedures in place so ASF could
review their files later. The officials said they planned to check on the missing documents when
their staff visited the subrecipients’ offices. However, this was never done.

Because ASF did not perform thorough reviews of subrecipients, it may not know whether some
of them have operational weaknesses. Consequently, the subrecipients could misuse the
advance payments or may not be able to track their resources. For these reasons, we make the
following recommendation.

   Recommendation 7. We recommend that USAID/Pakistan require the Agribusiness
   Support Fund to stop advance payments to subrecipients responsible for forming farmer
   groups until it conducts a thorough preaward responsibility determination.




                                                                                               10
Grant Activities Visited May Not Be
Sustainable
ADS 201.3.4.2, “Role of Partners, Customers, and Stakeholders,” states that USAID should
work closely with its host-country implementers to make sure development objectives address
problems, are achievable, and result in sustainable benefits after the Agency’s funding ends.

In addition, the cooperative agreement with ASF states:

       The work plans shall include the activities planned to be conducted, the site(s)
       where they would be conducted, and benchmarks/milestones; the outputs or
       outcomes which the Recipient expects to achieve; and the inputs planned to be
       provided by the Recipient, during the work-plan period. Included shall be an
       explanation of how those inputs are expected to achieve the outputs/outcomes
       and benchmarks/milestones.

OIG assessed five grant activities totaling $36,206 and found that none of them was
sustainable. Although this is a small number, ASF was in the process of awarding 110 similar
grants as of February 2013. Four of the five we assessed were farmer groups and received
different in-kind donations for activities, such as pickle production, growing vegetables, and goat
breeding. The fifth recipient, though not a farmer group, received solar dryers to dry chili
peppers. The following examples illustrate the problems these activities encountered.

   The members of the farmer groups in pickle production had limited access to the market to
    sell their products. They said that although the project’s staff took them to several stores in
    the area to sell their products, this activity was unsuccessful, and they eventually sold the
    goods to contacts and family members.

   Two groups received only female goats. Without a male goat, it would be impossible to
    breed goats as the activity intended. Furthermore, a week after distributing the goats, the
    NGO implementing this activity began to receive reports that some were sick. NGO officials
    said they might have gotten ill because they were from a different climate. Although the
    project prescribed medicine for the goats, some farmers could not afford it or travel into town
    to obtain it. Furthermore, the grant did not include the cost of the medication.

   Members of one group received horticultural tunnels to use to grow vegetables. However,
    they did not produce enough crops to sell because the tunnels were too small to grow large
    quantities of crops. The beneficiaries also complained that the materials used were of poor
    quality. Farmers said the heavy rains that occurred in this region during the time of the audit
    had damaged some of the tunnels. However, USAID officials said the structures were
    supposed to resist environmental damage. In addition, although the audit team observed
    that the neighboring farmers attempted to duplicate building similar horticultural tunnels, the
    farmers were not successful in replicating the tunnels with their own resources.

   The company that received dryers for chili peppers intended to look for new business
    opportunities and to obtain the knowledge needed to make the new agriculture venture
    successful. However, the project did not provide the group with any training or information,
    such as advice on what types of chili peppers to grow.




                                                                                                11
Because ASF did not include the grant activities in its first-year work plan or identify how grant
activities would achieve results, USAID did not know what kind of activities were planned until
after AFS chose grantees. Since the cooperative agreement limits USAID‘s level of oversight of
grant activities worth less than $5,000, about 83 percent of the project’s grants do not need
Agency approval.

Based on these examples and ASF’s lack of experience, other grant activities may not be
sustainable, and the project may not achieve its goals of improving broad-based economic
growth, and creating jobs. For this reason, and to help the project meet its objectives, we make
the following recommendation.

   Recommendation 8. We recommend that USAID/Pakistan obtain a revised annual plan
   from the Agribusiness Support Fund to include specific grant activities that it plans to
   implement during the year, with benchmarks, milestones, and expected outputs and
   outcomes.

Implementer Did Not Record All
Project Income
According to the agreement, income earned during the project must be added to the total
amount of revenue. Some agreements require grantees to submit an application fee of
approximately $100 to the implementer, along with the grant application. If the implementer
selects the grantee, the application fee is not refundable. However, the implementer should
record the application fee in a separate account from the one for the project.

As of February 2013, ASF received deposits from 107 grantees totaling approximately $11,000.
This amount will increase as the project continues to issue grants. The nonrefundable
application fees were not recorded as income because ASF planned to use them as a reserve
for monitoring activities after the project ends. However, ASF’s management said they were
willing to adjust how it records the funds if required by USAID.

USAID/Pakistan had not provided clear guidance as of the time of the audit on how ASF should
record the funds. As a result, there is a risk that these funds might not be used for project
purposes. For this reason, we make the following recommendation.

   Recommendation 9. We recommend that USAID/Pakistan require the Agricultural
   Support Fund to record the nonrefundable application fees received from the grantees
   as income in the project accounts.




                                                                                               12
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Pakistan agreed with the nine recommendations in the draft report and made a
management decision on Recommendation 2. The mission has not made management
decisions on Recommendations 1, 3, 4, 5, 6, 7, 8, and 9.

Recommendation 1. USAID/Pakistan agreed with the recommendation. It received a plan from
ASF to reduce the number of value chains from 16 to 10 and will reduce the total estimated cost
of the award to reflect the project’s reduced scope. Mission officials said they will decide by
July 8, 2013, whether they should modify the award by reducing the scope or terminate the
Agribusiness Project.

USAID/Pakistan did not agree with the statement that ASF lacked experience to manage the
project. Officials said they made a positive responsibility determination and noted several of
ASF’s experiences.

However, the mission selected ASF after the first preaward assessment rated the organization
as high risk in all functions, which include finance, procurement, information systems, and
internal controls. In addition, the mission admitted that ASF had limited experience in
two internal documents. In the first, the mission wrote that the project was delayed because
ASF needed more experience issuing grants. In addition, in the second, it explained that as a
local organization, ASF and its staff needed significant capacity building.

Recommendation 2. USAID/Pakistan agreed with the recommendation. It stated that many of
the weaknesses that OIG identified have been or are in the process of being corrected. The
mission agreed to review the extent to which the risks identified in the risk mitigation frameworks
are being managed to make sure that corrective actions identified during the preaward
assessments are resolved within the time frame. The mission plans to complete the review by
July 19, 2013. Mission officials have reached a management decision.

Recommendation 3. USAID/Pakistan agreed with the recommendation. If the mission decides
to continue with the Agribusiness Project, it will ask ASF to provide its policies relevant to this
award for review. Mission officials said they will decide by July 8, 2013, whether they should
modify the award by reducing the scope or terminate the Agribusiness Project. Therefore, a
management decision has not been reached.

Recommendation 4. USAID/Pakistan agrees with the recommendation. If the mission decides
to continue with the project, it will review the findings of the second preaward assessment report
to identify any weaknesses for which special award conditions would need to be incorporated
into the award. Mission officials said they will decide by July 8, 2013, whether they should
modify the award by reducing the scope or terminate the Agribusiness Project. Therefore, a
management decision has not been reached.

Recommendation 5. USAID/Pakistan agreed with the recommendation. If the mission decides
to continue with the project, it will continue the work it has begun with ASF to develop a work
plan, which would include a specific schedule for completing the required manuals and



                                                                                                13
implementing the information management system. Mission officials said they will decide by
July 8, 2013, whether they should modify the award by reducing the scope or terminate the
Agribusiness Project. Therefore, a management decision has not been reached.

Recommendation 6. USAID/Pakistan agreed with the recommendation. If the mission decides
to continue with the project, it will require ASF to submit a revised second-year work plan with
realistic targets and objectives; once the plan is approved, the mission will monitor progress
through regular site visits. Mission officials said they will decide by July 8, 2013, whether they
should modify the award by reducing the scope or terminate the Agribusiness Project.
Therefore, a management decision has not been reached.

Recommendation 7. USAID/Pakistan agreed with the recommendation. If the mission decides
to continue with the project, it will require ASF to submit a file checklist detailing the
documentation that must be in each subaward file to make an affirmative responsibility
determination that is in line with the grants manual. Based on the results of the review, the
mission may ask ASF to terminate its awards with subrecipients that do not appear to be
responsible. However, the mission does not believe suspending all advances to subrecipients
would be suitable because it would severely disrupt the project implementation and cause more
delays.

Mission officials said they will decide by July 8, 2013, whether they should modify the award by
reducing the scope or terminate the Agribusiness Project. Therefore, a management decision
has not been reached.

Recommendation 8. USAID/Pakistan agreed with the recommendation in principle, but
disagreed with the technical analysis in the finding.

If the mission decides to continue with the project, it will require ASF to submit a revised
second-year work plan that includes specific grant activities it plans to implement during the
year, with benchmarks, milestones, and expected outputs and outcomes. Mission officials said
they will decide by July 8, 2013, whether they should modify the award by reducing the scope or
terminate the Agribusiness Project. Therefore, a management decision has not been reached.

Regarding the technical analysis for the finding, USAID/Pakistan officials said that sampling five
grants did not approach the level of certainty to conclude that other grants may not be
sustainable, and they felt that a larger sample was required to make such a conclusion.

OIG agrees that it could not make such a statement without reviewing a larger sample.
However, the finding limited its analyses to the activities that OIG visited. The purpose of the
finding was to alert the mission to problems that OIG found with the sample so the mission
could address them and make sure that future grant activities do not have similar problems.

Regarding the pickle production activity, although the mission disagreed with the fact that it was
unsustainable, it agreed that more work should be done to make sure farmers are producing
what the market wants. For the tunnel production, the mission stated that neighboring farmers
were able to replicate the tunnels. However, during OIG’s site visit, the team observed that the
neighboring farmers were not successful in replicating the tunnels with their own resources.

Recommendation 9. If the mission decides to continue with the project, it will require
ASF to treat application fees as program income and apply them toward the award’s cost share
requirement. Mission officials said they will decide by July 8, 2013, whether they should modify


                                                                                               14
the award by reducing the scope or terminate the Agribusiness Project. Therefore, a
management decision has not been reached.

The mission should coordinate with USAID’s Audit Performance and Compliance Division
concerning final action on the remaining recommendations. The complete text of management
comments is included in Appendix II.




                                                                                      15
                                                                                         Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. They require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions in
accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/Pakistan’s Agribusiness Project was
improving conditions for broad-based economic growth and creating jobs—two of three goals.
No previous audits have addressed the areas reviewed.

The audit covered activities implemented from November 10, 2011, to March 30, 2013. The
project started on November 10, 2011, and will end on November 9, 2016. As of
December 2012, USAID had obligated approximately $27.3 million and spent $7.8 million for the
project. OIG visited 5 grantees, totaling approximately $34,206, and tested 4 out of
11 subrecipients, totaling $1.4 million, to understand the selection process and determine
whether they were using the grants as intended.

We reviewed applicable laws and regulations as well as USAID policies and procedures
pertaining to the project, including ADS Chapters 201 and 303. The audit relied on the following
sources of evidence: the cooperative agreement, annual plans, performance monitoring plan,
quarterly progress reports, and interviews with officials from USAID/Pakistan, ASF, and CNFA,
the international consultant, and beneficiaries. We reviewed and analyzed documentation
maintained at the mission and at ASF’s offices in Islamabad and Lahore. Audit fieldwork was
performed at the USAID/Pakistan mission and at ASF’s project offices in Islamabad. The audit
also included field visits to rural areas near Islamabad, Lahore, and the Punjab region from
February 25, 2013, through March 1, 2013.

In planning and performing the audit, the audit team assessed significant controls that ASF used
to manage the project and to make sure it provided adequate oversight of project activities.
These controls included reviewing ASF’s selection criteria for its subrecipients to assess
whether it followed its procedures, how it procured in-kind grants, and how it collected data from
grant recipients.

Methodology
To answer the audit objective, the audit team interviewed officials from USAID/Pakistan, ASF,
CNFA, the international consultant, and beneficiaries. The audit team also reviewed mission
and ASF documentation used to manage and monitor the project. To validate the results
reported, the audit team verified key reported results with supporting data maintained by ASF.

The audit team had a materiality threshold of plus or minus 10 percent. The audit team
judgmentally selected 5 of 110 grant recipients to visit and assess their activities. The team
could conduct only a limited number of site visits because of security restrictions. In addition, the




                                                                                                  16
                                                                                        Appendix I


audit team tested 4 of 11 subrecipients to verify their eligibility for receiving subawards. The
results from our judgmental sampling cannot be projected to the universe.

Additionally, through interviews, documentation reviews, and data analysis, the audit team
obtained an understanding of (1) the project’s main goals, (2) how the mission monitors the
implementation of the project, (3) the quality of the data reported, and (4) allegations of fraud or
other potential illegal acts or noncompliance with laws and regulations.




                                                                                                 17
                                                                                      Appendix II




MEMORANDUM

Date:            May 29, 2013

To:              Matthew Rathgeber
                 Director OIG/Pakistan

From:            Jonathan M. Conly /s/
                 Mission Director USAID/Pakistan

Subject:         Management Comments on the Audit of USAID/Pakistan’s Agribusiness Project

Reference:       Draft Report No. G-391-13-00x-P dated May 03, 2013


The USAID/Pakistan mission would like to thank the OIG/Pakistan audit team for undertaking
the audit of the USAID/Pakistan’s Agribusiness Project implemented by the Agribusiness
Support Fund (ASF). This memorandum contains USAID/Pakistan’s response to the draft audit
report. While USAID/Pakistan does not fully agree with the all of the audit findings, the Mission
believes that the recommended actions will further strengthen the activities under this award. In
fact, some of the stated corrective actions were already under way when this audit was
conducted.


Audit Finding: “Implementer Lacked Capacity to Manage the Project”
Mission does not agree with the characterization on page 4 of the draft audit report, “The
mission selected the implementer even though it lacked the experience necessary to manage
the project.” It is true that the Mission was directed by the Assist Coordinator to make awards to
local organizations during the time in question; however the Mission did make a positive
responsibility determination. The Mission noted that ASF had:

           1) A track record of expanding existing agribusinesses and stimulating creation of new
           agribusinesses
           2) National coverage
           3) A program for skill development required for profitable business management.
           4) Access to cadre of technical experts to assist new and expanding agribusinesses
           5) Experience managing program funds, and
           6) Qualified, experienced and stable leadership with reputation of efficient
           management.

While the Mission recognized there would be challenges in the implementation of the award,
these challenges were not deemed so insurmountable as to exclude ASF from receiving the
award. In addition, prior to making the award, the Mission conducted a pre-award assessment
to determine amongst other issues, what if any assistance ASF might require in implementing
the award. In hindsight, the Mission could have scoped the award differently to allow more time

                                                                                               18
                                                                                        Appendix II


for the rollout of services in a more limited number of value chains.

Below are the specific comments with regard to the recommendations under this finding:
Recommendation No. 1
We recommend that USAID/Pakistan develop an action plan to ensure program goals will
be reached by the end of 2016, or, if the goals cannot be reached, determine if the
agreement signed with the Agribusiness Support Fund should be discontinued.

The Mission agrees with this recommendation. The Mission has requested and received a plan
from Agribusiness Support Fund (ASF) to reduce the number of value chains from sixteen to ten
and an associated reduction in the total estimated cost of the award consummate with the
reduced scope. The Mission is currently evaluating the viability and practicality of the plan with
ASF. By July 8, 2013, the Mission will make a determination as to whether it is in the best
interest of the government to modify the award and reduce its scope or terminate the USAID
Agribusiness Project.


Recommendation No. 2
We recommend that prior to making future awards, USAID/Pakistan implement mission-
wide procedures to verify independently that corrective actions are sufficient to address
weaknesses identified in its pre-award assessments.

The Mission agrees with the intent of the finding and recommendation. Pre-award assessments
may identify corrective actions that are determined to be required prior to award, a set of
corrective actions which are required to be completed within a specified period after the award,
or both. ADS 303.3.9 specifically allows risks identified in pre-award assessments/surveys to be
addressed in awards by special award conditions that must be met in a reasonable timeframe
after the award is made. Once the weaknesses have been mitigated, the special award
conditions will be removed from the award. In the case of non-compliance, additional measures
will be considered including the possibility of award termination. The Mission will continue to
affect its awards within the context of this guidance while emphasizing the need to monitor and
manage implementing partners whose awards contain risk mitigation steps.

The Mission has in place a process and procedures to ensure pre-award assessments are
conducted prior to award, that the risks are reviewed and addressed in a risk mitigation
framework and that the conditions of the award are followed up (Mission Notice No.44/2011).
This process is not acknowledged in the audit finding. This process was put into place as a
result of the prior OIG audit “Audit of USAID/Pakistan’s Management of Pre-award
Assessments,” dated May 6, 2011. The pre-award assessment and the risk mitigation
framework the OIG reviewed for this activity during the course of the audit was a direct result of
the implementation of the audit recommendations.

We believe the underlying question raised by this audit finding and the intent of the
recommendation is to determine whether the established process is working to ensure risks are
identified and sufficient corrective actions are taken to address the weaknesses identified. To
answer this question, we will review the extent to which the risks identified in the risk mitigation
frameworks are being managed to ensure the corrective actions identified are resolved within
the identified timeframes. This review will be conducted as a part of our internal control testing
for the Federal Managers Financial Integrity act (FMFIA). This testing will take place in June
2013. Based on the outcome of this testing the Mission will determine if the processes and
procedures in Mission Notice No.44/2011 are sufficient to ensure that corrective actions are


                                                                                                 19
                                                                                   Appendix II


taken to address the weaknesses identified in the pre-award assessments and initiate corrective
action as necessary. This work will be completed by July 19, 2013.

Based on the above, the Mission requests OIG’s acknowledgement that a management
decision has been reached.


Recommendation No. 3
We recommend that USAID/Pakistan implement a plan to confirm that the policies and
procedures of the Agribusiness Support Fund related to governance, procurement,
human resource, information technology and agribusiness operations comply with
USAID regulations.

The Mission agrees with this recommendation in principle. Should the Mission decide to
continue with this activity (see management response to Recommendation No.1), the
Mission will request ASF to provide its policies relevant to this award, such as procurement,
personnel, travel (the project’s Grants Manual has already been extensively reviewed by
USAID), for review, comment and concurrence. However, the Mission remains concerned that
policies such as “agribusiness operations” do not directly correspond to USAID requirements
and, as such, it may not be within the purview of USAID to review this area under an Assistance
agreement.

Based on the above, the Mission requests OIG’s acknowledgement that a management
decision will be reached when the Mission makes a determination as to whether it is in the best
interest of the government to modify the award and reduce its scope or terminate the USAID
Agribusiness Project. This decision will be made by July 8, 2013.



Audit Finding: “Implementer did not Correct Material Weaknesses”

The Mission would like to note that many of the weaknesses identified in the pre-award
assessment have been corrected (e.g. recruitment policies) or are on the verge of being
corrected (e.g. internal audit).

Below are the specific comments with regard to the recommendations under this finding:

Recommendation No. 4
We recommend that USAID/Pakistan follow up with the Agribusiness Support Fund to
correct the weaknesses identified in the second pre-award assessment report.

The Mission agrees with this recommendation in principle. Should the Mission decide to
continue with this activity (see management response to Recommendation No.1), the
Mission will review the findings of the second pre-award assessment report to identify
any weaknesses which may remain for which Special Award Conditions will be incorporated into
the award to outline the specific steps which ASF must take to satisfactorily address each
weakness. If the Mission does not continue the program, the remaining weaknesses will be
recommended for ASF’s own action as good management practices.

Based on the above, the Mission requests OIG’s acknowledgement that a management
decision will be reached when the Mission makes a determination as to whether it is in the best


                                                                                            20
                                                                                   Appendix II


interest of the government to modify the award and reduce its scope or terminate the USAID
Agribusiness Project. This decision will be made by July 8, 2013.

Recommendation No. 5
Implement a strategy to work with Agribusiness Support Fund to update its finance and
procurement manuals and implement the Integrated Management Information System

The Mission agrees with this recommendation in principle. Should the Mission decide to
continue with this activity (see management response to Recommendation No.1), the Mission
will continue the work it has already started with ASF to develop a new work plan. Part of this
work plan will include a specific timeline for the completion of the required manuals and the
completion of the implementation of the information management system.

Based on the above, the Mission requests OIG’s acknowledgement that a management
decision will be reached when the Mission makes a determination as to whether it is in the best
interest of the government to modify the award and reduce its scope or terminate the USAID
Agribusiness Project. This decision will be made by July 8, 2013.

Recommendation No. 6
We recommend that USAID/Pakistan implement a plan to monitor the second year annual
plan to ensure that the project can meet its targets, outcomes, and goals.

The Mission agrees with this recommendation in principle. Should the Mission decide to
continue with this activity (see management response to Recommendation No.1), the
Mission will require ASF to submit a revised second-year Work Plan with realistic targets and
objectives. Once the Work Plan is approved, USAID will monitor progress through regular site
visits.

Based on the above, the Mission requests OIG’s acknowledgement that a management
decision will be reached when the Mission makes a determination as to whether it is in the best
interest of the government to modify the award and reduce its scope or terminate the USAID
Agribusiness Project. This decision will be made by July 8, 2013.



Audit Finding: “Project did not Thoroughly Assess Sub-recipient Eligibility”

On Page 11, the audit report cites ADS 303.3.9 as the criteria for the finding. However, this
criterion applies to the USAID Agreement Officer for a USAID direct award, not to a USAID
implementer who makes sub-awards/grants. As an implementer, ASF is required to perform the
following responsibility determination (from the standard provision SUBAWARDS (June 2012) :

“The recipient must determine that the sub-recipient possesses the ability to perform
successfully under the terms and conditions of a proposed award, taking into consideration the
sub-recipient’s integrity, record of past performance, financial and technical resources, and
accessibility to other necessary resources. The recipients must ensure sub-awards are made in
compliance with the Standard Provision “Suspension and Debarment,” and the Standard
Provision “Prevention of Terrorist Financing.”

Below are the specific comments with regard to the recommendations under this finding:



                                                                                            21
                                                                                     Appendix II



Recommendation No. 7
We recommend that USAID/Pakistan require the Agribusiness Support Fund to stop
advance payments to sub-recipients responsible for forming farmer groups until the
Agribusiness Support Fund conducts a thorough pre-award responsibility determination.

The Mission agrees with this recommendation in principle. ASF must comply with the “sub-
awards” provision of the Cooperative Agreement for which ASF’s procedures for conducting a
responsibility determination are codified in its Grants Manual which was approved by USAID in
May 2012. Should the Mission decide to continue with this activity (see management response
to Recommendation No.1), the Mission will require ASF to submit a file checklist detailing the
documentation that must be in each sub-award file to make an affirmative responsibility
determination, in line with ASF’s Grants Manual. The Mission will schedule a review of a
representative sample of sub-grantees documentation to ensure that the necessary
documentation is in the file and that sub-awards are supported by appropriate responsibility
determinations. Based on the results of the file review, the Mission may request that ASF
terminate its awards with sub-recipients that do not appear responsible.

The Mission believes that suspending all advances to sub-recipients would not be suitable, as
this would be severely disruptive to the project interventions that are currently underway, thus
compounding the delays in implementation.

Based on the above, the Mission requests OIG’s acknowledgement that a management
decision will be reached when the Mission makes a determination as to whether it is in the best
interest of the government to modify the award and reduce its scope or terminate the USAID
Agribusiness Project. This decision will be made by July 8, 2013.


Audit Finding: “Activities Funded by the Project May not be Sustainable”

The Mission would like to point out that a sampling of 5 grants does not approach the level of
certainty to conclude that other grants may not be sustainable. The authors of the report also
misunderstand the type of support provided and its expected results. Blanket statements on
failure or potential unsustainability of activities require review of a larger sample and also
require analysis by people with the requisite technical skills.

   1. Pickle production: The audit report states that while the project provided some market
      support, the farmers were unable to sell their products to those markets. It should be
      noted that the project does not guarantee market sales. It facilitates connections to
      farmers to begin building relationships with end markets. The fact that these particular
      farmers were unable to sell their products should not be an indication that the activity is
      unsustainable or that it failed. It is however an indication that more work needs to be
      conducted to ensure that farmers are producing what the market requires and this work
      is being followed up in the current work cycle.
   2. Tunnel production: USAID disagrees with the statement on tunnel production. The tunnel
      technology used is appropriate for the size and scale of operation at the sites.
      Additionally, the tunnels have since been replicated by neighboring farmers without
      support from the project or USAID. This effort has been one of the more successful
      operations to date of the project.
   3. Goats: We agree that this was an ill-conceived grant and it will not be repeated.


                                                                                              22
                                                                                    Appendix II


   4. Solar dryers: It is unclear from the auditor statement what the issue is they are raising.
      Is the problem that the recipient did not receive proper information or that the recipient
      was using the money to offset his research costs? This should be clarified if it is to be
      used as an example of an unsustainable activity. The project does provide grants to
      help offset costs of business looking to explore new ventures and technologies. This is
      considered as helping catalyze the industry and an important need in a risk adverse
      business climate. The grant was therefore appropriate in that sense. However, we do
      agree that if technical assistance was not provided it should have been and will follow-up
      to ensure that it happens.

Below are the specific comments with regard to the recommendations under this finding:

Recommendation No. 8
We recommend that USAID/Pakistan obtain a revised annual plan from the Agribusiness
Support Fund to include specific grant activities that it plans to implement during the
year, with benchmarks, milestones, and expected outputs and outcomes.

The Mission agrees with this recommendation in principle. Should the Mission decide to
continue with this activity (see management response to Recommendation No. 1), the
Mission will require ASF to submit a revised second-year Work Plan. The Mission will ensure it
includes specific grant activities that ASF plans to implement during the year, with benchmarks,
milestones, and expected outputs and outcomes.

Based on the above, the Mission requests OIG’s acknowledgement that a management
decision will be reached when the Mission makes a determination as to whether it is in the best
interest of the government to modify the award and reduce its scope or terminate the USAID
Agribusiness Project. This decision will be made by July 8, 2013.


Recommendation No. 9
We recommend that USAID/Pakistan require the implementer to record the
nonrefundable application fees received from the grantees as income in the project
accounts.

The Mission agrees with this recommendation in principle. Should the Mission decide to
continue with this activity (see management response to Recommendation No. 1), the Mission
will require ASF to treat application fees as program income and apply it towards the award’s
cost share requirement.

Based on the above, the Mission requests OIG’s acknowledgement that a management
decision will be reached when the Mission makes a determination as to whether it is in the best
interest of the government to modify the award and reduce its scope or terminate the USAID
Agribusiness Project. This decision will be made by July 8, 2013.




                                                                                             23
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
             Tel: 202-712-1150
             Fax: 202-216-3047
            http://oig.usaid.gov
